Alan B. Morrison
George Washington Law School
2000 H Street NW,
Washington D.C. 20052
202 994 7120
abmorrison@law.gwu.edu
April 10, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: American Institute for International Steel v.
United States, No. 19-1177
Dear Mr. Harris:
As counsel of record for petitioners in the above case, I am writing to grant blanket
consent to the filing of a brief amicus curiae by any person or entity, provided that it is filed
within the time allowed by the rules of this Court. This consent applies without regard to the
position taken or the party being supported by the brief.

Sincerely,
/s/ Alan B. Morrison
Alan B. Morrison

